                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
                                                                             Kansas City, Missouri 64106



January 4, 2011

Report Number: A-07-10-00342

Mr. Ricardo Rivera
President
Cooperativa de Seguros de Vida de Puerto Rico
400 Americo Miranda Avenue
Rio Piedras, PR 00927

Dear Mr. Rivera:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Pension Costs Claimed for Medicare
Reimbursement by Cooperativa de Seguros de Vida de Puerto Rico for Fiscal Years 2007
Through 2009. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-10-00342
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Ricardo Rivera

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
   Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF PENSION COSTS CLAIMED
FOR MEDICARE REIMBURSEMENT BY
COOPERATIVA DE SEGUROS DE VIDA
DE PUERTO RICO FOR FISCAL YEARS
      2007 THROUGH 2009




                        Daniel R. Levinson
                         Inspector General

                          January 2011
                          A-07-10-00342
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Cooperativa de Seguros de Vida de Puerto Rico (COSVI) administered Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) until the contractual relationship was terminated February 28, 2009. The
effective closing date for the Medicare segment was December 31, 2008.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that COSVI claimed for
Medicare reimbursement for fiscal years (FY) 2007 through 2009.

SUMMARY OF FINDING

COSVI did not claim $140,010 of pension costs that were allowable for Medicare reimbursement
for FYs 2007 through 2009. This understatement occurred primarily because COSVI calculated
its pension expense using the contributions to the pension plan instead of computing pension
costs in accordance with CAS 412 and 413, as required by the Medicare contracts. In basing the
pension expense on the pension plan contributions, COSVI claimed $476,441 in Medicare
reimbursement. We calculated allowable pension costs for this period in accordance with CAS
412 and 413, as required by the Medicare contracts, to be $616,451, a difference of $140,010.

RECOMMENDATION

We recommend that COSVI increase its Final Administrative Cost Proposal pension costs by
$140,010.

AUDITEE COMMENTS

In written comments on our draft report, COSVI agreed with our recommendation. COSVI’s
comments are included in their entirety as Appendix B.




                                                i
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Cooperativa de Seguros de Vida de Puerto Rico .................................................1
              Medicare Reimbursement of Pension Costs ........................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................1
               Objective ..............................................................................................................1
               Scope ....................................................................................................................1
               Methodology ........................................................................................................2

FINDING AND RECOMMENDATION .................................................................................2

          FEDERAL REQUIREMENTS ........................................................................................2

          ALLOWABLE PENSION COSTS NOT CLAIMED .....................................................3

          RECOMMENDATION ...................................................................................................3

          AUDITEE COMMENTS.................................................................................................3

APPENDIXES

    A: ALLOWABLE MEDICARE PENSION COSTS FOR COOPERATIVA DE SEGUROS
       DE VIDA DE PUERTO RICO FOR FISCAL YEARS 2007 THROUGH 2009

    B: AUDITEE COMMENTS




                                                                     ii
                                       INTRODUCTION

BACKGROUND

Cooperativa de Seguros de Vida de Puerto Rico

Cooperativa de Seguros de Vida de Puerto Rico (COSVI) administered Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) until the contractual relationship was terminated February 28, 2009. The
effective closing date for the Medicare segment was December 31, 2008.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
the Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that COSVI claimed for
Medicare reimbursement for FYs 2007 through 2009.

Scope

We reviewed $476,441 of pension costs that COSVI claimed for Medicare reimbursement on its
Final Administrative Cost Proposals (FACP) for FYs 2007 through 2009. Achieving our
objective did not require that we review COSVI’s overall internal control structure. However,
we reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed fieldwork in our Jefferson City, Missouri, field office from January through
March 2010.




                                                1
Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contract. Additionally, we
reviewed COSVI’s FACPs to identify the amount of pension costs claimed for Medicare
reimbursement for FYs 2007 through 2009. We also determined the extent to which COSVI
funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits. We based our calculations on separately computed CAS pension costs for
the Medicare segment and the “Other” segment. The CMS Office of the Actuary calculated the
allocable CAS pension costs based on COSVI’s historical practices and on the results of our
segmentation review (Review of the Qualified Pension Plan at Cooperativa de Seguros de Vida
de Puerto Rico, A Terminated Medicare Contractor, for the Period January 1, 2007, to
December 31, 2008, A-07-10-00343).

In performing our review, we used information that COSVI’s actuarial consulting firms
provided. The information included assets, liabilities, normal costs, contributions, benefit
payments, investment earnings, and administrative expenses. We examined COSVI’s
accounting records, pension plan documents, annual actuarial valuation reports, and Department
of Labor/Internal Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

COSVI did not claim $140,010 of pension costs that were allowable for Medicare reimbursement
for FYs 2007 through 2009. This understatement occurred primarily because COSVI calculated
its pension expense using the contributions to the pension plan instead of computing pension
costs in accordance with CAS 412 and 413, as required by the Medicare contracts. In basing the
pension expense on the pension plan contributions, COSVI claimed $476,441 in Medicare
reimbursement. We calculated allowable pension costs for this period in accordance with CAS
412 and 413, as required by the Medicare contracts, to be $616,451, a difference of $140,010.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.




                                               2
CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOWABLE PENSION COSTS NOT CLAIMED

COSVI did not claim $140,010 of allowable Medicare pension costs for FYs 2007 through 2009.
For that period, COSVI claimed pension costs of $476,441 for Medicare reimbursement. We
calculated allowable pension costs based on separately computed CAS pension costs for the
Medicare segment and the “Other” segment, in accordance with CAS 412 and 413. Based on the
terms of the Medicare contracts, the allowable CAS pension costs for this period totaled
$616,451.

The following table compares allowable CAS pension costs with the pension costs claimed on
COSVI’s FACPs. Appendix A contains details on allowable pension costs and contributions.

            Comparison of Allowable Pension Costs and Claimed Pension Costs

                                    Medicare Pension Costs
                                     Allowable     Claimed
                 Fiscal Year         Per Audit    by COSVI              Difference
                    2007                $244,123    $261,524             ($17,401)
                    2008                 295,424     173,772               121,652
                    2009                  76,904      41,145                35,759
                    Total               $616,451    $476,441              $140,010

The Medicare contracts required COSVI to calculate pension costs for Medicare reimbursement
pursuant to CAS 412 and 413. However, COSVI based its claim on the contributions to the
pension plan. As a result, COSVI did not claim $140,010 of allowable pension costs.

RECOMMENDATION

We recommend that COSVI increase its FACP pension costs by $140,010.

AUDITEE COMMENTS

In written comments on our draft report, COSVI agreed with our recommendation. COSVI’s
comments are included in their entirety as Appendix B.




                                                3
APPENDIXES
                                                                                                                                      Page lof2
                                    APPENDIX A: ALLOWABLE MEDICARE PENSION COSTS FOR 

                                      COOPERATIVA DE SEGURA DE VIDA DE PUERTO RICO 

                                            FOR FISCAL YEARS 2007 THROUGH 2009 


                                                                            Total            "Other"           Medicare          Total
          Date                            Description                      Company           Segment           Segment          Medicare

          2006 	           Allocable Pension Cost                    lL                      $1,933,436          $213,996

          2007         Contributions                                 7d    $5,445,000        $5,320,543          $124,457
         6.00%         Discount for Interest                         3/     ~$238,5532        ~$233, I002          ~$5,4532
     January I, 2007 	 Present Value Contributions                   1£    $5,206,447        $5,087,443          $119,004 

                       Prepayment Credit Applied                     5/     $972,616           $879,430           $93,186 

                       Present Value of Funding                      Ql.   $6,179,063        $5,966,873          $212,190 


     January I, 2007 	 CAS Funding Target                            1L    $2,214,706        $2,002,516          $212,190 

                       Percentage Funded                             fu:                        100.00%           100.00% 

                       Funded Pension Cost                           2L                      $2,002,516          $212,190 

                       Allowable Interest                            10/                        $47,731            $5,058 

                       Allocable Pension Cost                                                $2,050,247          $217,248 

          2007 	       Fiscal Year Pension Cost                     ill                      $2,021,044          $216,435
                       Medicare LOB' Percentage                      12/                          1.37%           100.00%

                           Allowable Pension Cost                   ru 	                        $27,688          $216,435        $244,123

          2008             Contributions                                   $2,092,456        $2,092,456                $0 

         6.00%             Discount for Interest                             ($72, 1902        ~$72, 1902              $0 

     January 1,2008        Present Value Contributions                     $2,020,266        $2,020,266                $0 

                           Prepayment Credit Applied                       $2,931,199        $2,654,106          $277,093 

                           Present Value of Funding                        $4,951,465        $4,674,372          $277,093 


     January 1,2008 	 CAS Funding Target                                   $2,931,199        $2,654,106          $277,093 

                      Percentage Funded                                                         10000%            100.00% 

                      Funded Pension Cost                                                    $2,654,106          $277,093 

                      Allowable Interest                                                             $0                $0 

                      Allocable Pension Cost                                                 $2,654,106          $277,093 

          2008 	      Fiscal Year Pension Cost                                               $2,503,141          $262,132
                      Medicare LOB' Percentage                                                    1.33%           100.00%

                           Allowable Pension Cost 	                                             $33,292          $262,132        $295,424

          2009              Fiscal Year Pension Cost                 14/                       $663,527            $69,273
                           .Medic(jfe LOB' Percentage ..                                          1.15%            100.00%

                           Allowable Pension Cost 	                                               $7,631           $69,273        $76,904



     • Line of business.

FOOTNOTES

lL   The allocable Cost Accounting Standards (CAS) pension cost is the amount of pension cost that may be allocated for contract cost
     purposes. We obtained the 2006 plan year (PY) (January I - December 31) allocable pension from our prior review (A-07-08-00272;
     issued July 10, 2009).

7d 	 We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The
     contributions included deposits made during the plan year and accrued contributions deposited after the end of the plan year but
     within the time allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the pension
     segmentation review (A-07-09-00343). The amounts shown for the "Other" segment represent the difference between the Total
     Company and the Medicare segments.

Jl We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the
     contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference
     between the present value of contributions (at the valuation interest rate) and actual contribution amounts.
                                                                                                                                           Page 2 of2



 11   The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the
      PY. For purposes of this Appendix, we deemed deposits made after the end of the plan year to have been made on the final day of the
      PY, consistent with the method mandated by the Employee Retirement Income Security Act.

 'jj A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is 

     created when contributions, plus interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, with 

     interest, to fund future CAS pension costs. 


 §L 	The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding that
     is available to cover the CAS funding target measured at the first day of the PY.

 7..L 	 The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the Federal 

        Acquisition Regulation (FAR) 31.205-6(j)(2)(i). 


 fu' 	 The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the PY. Because any 

      funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(l) (as amended), 

      the funded ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding divided by the 

      CAS funding target. For purposes of illustration, the percentage of funding has been rounded to four decimals. 


 21   We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

lQL 	We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion as the interest
      on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR 31.205­
      6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding target, less the
      prepayment credit, were funded in four equal installments deposited within 30 days after the end of the quarter.

ill We converted the PY allocable pension costs to a fiscal year (FY) basis (October I through September 30). We calculated the FY
      pension costs as 1/4 of the prior year's costs plus 3/4 of the current year's costs.

121 	We calculated allowable pension costs of the Medicare and "Other" segments based on the Medicare line of business (LOB)
      percentage of each segment. The Medicare segment charged 100 percent of its pension costs to Medicare. The "Other" segment
      charged only a portion of its pension costs to Medicare. We determined the LOB percentages based upon information provided by
      COSY!.

IlL We computed the allowable Medicare pension cost as the FY pension cost multiplied by the Medicare LOB percentage. Pursuant to
      CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare contract consisted of the Medicare segment's
      direct pension costs plus "Other" segment pension costs attributable to indirect Medicare operations.

14/ We computed FY 2009 pension costs as 1/4 of the 2008 PY allocable cost to represent the period October 1,2008, through the
    December 31, 2008, effective segment closing date.
                  APPENDIX B: AUDITEE COMMENTS 





December 16, 2010


Mr. Patrick J. Cogley
Regional Inspector General
for Audit Services
Office of Inspector General
Office of Audit Services, Region VII
601 East 12th Street Room 0429
Kansas City, MO 64106

                                                           Re: A-07-10-oo342
                                                               A-07-10-oo343
Dear Mr. Cogley:

        We are submitting our written comments to the U.S. Department of Health and Human
Services, Office of the Inspector General (OIG) draft reports dated November 17, 2010.

    1. 	 A-07-1D-00342 Review of Pension Cost claimed for Medicare Reimbursement by
         Cooperativa de Seguros de Vida de Puerto Rico for fiscal Years 2007 through 2009. COSVI did
         not claim $140,010 of allowable pension cost for the period.

         We agree with the recommendation of increasing our FACP by $140,010 nevertheless based
        on previous recommendation from CMS the adjustment will be subject to the final
        settlement determination after summarizing all audits reports which are pending review.

    2. 	 A-07-10-00343 Review of the Qualified Pension Plan at Cooperativa de Seguros de Vida de
         Puerto Rico a Terminated Medicare contractor for the Period January 1, 2007 to December
         31,2008.

        We concur with the recommendation of increasing the segment asset as of December 31,
        2008 by $208,414 and decreasing the share of the Medicare segment's excess pension
        liability by $208,277, recognizing $455,718 as the Medicare portion. We will refer the
        recommendation to our actuary. We anticipate the final settlement will result in an amount
        due COSVI in the amount of $455,718.

Thank you for the opportunity to comment on the reports.

SinC$l~

Rlcar~-a---
c: Stuart Brown

      Ave. Americo Miranda #400, Expreso Las Americas, Villa Nevarez, Rio Piedras, Puerto Rico 00927 

             PO BOX 363428, San Juan, Puerto Rico 00936-3428 - Telefono (787) 751-5656 

                                             www.cosvl.com 

